OIG Investigative Reports, Two Former Charter School Execs Plead Guilty to Embezzling School Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Contact: Patty Hartman
215-861-8525
For Immediate Release
October 22, 2008
U.S. Department of Justice
United States Attorney
Eastern District of Pennsylvania
615 Chestnut Street
Suite 1250
Philadelphia, Pennsylvania 19106-4476
(215) 861-8200
Two Former Charter School Execs Plead Guilty to Embezzling School Funds
PHILADELPHIA - Martha Russell, 52, of Blue Bell, PA, and Viola Bush, 49, of Lansdale,
PA, pleaded guilty today to conspiracy and alteration of records with the intent to impede the
proper administration of a matter within the jurisdiction of the U.S. Department of Justice.
Russell was the Chief Executive Officer of Raising Horizons Quest Charter School. Bush is
Russell’s sister and was Chief Financial Officer of the school. From 2003 to 2005, the two
defendants stole funds intended for the school and later attempted to hide their unlawful activities
while being audited by the Philadelphia School District in January 2006.
The defendants each face an advisory guidelines sentencing range of 10 to 16 months in
prison when sentenced on January 26, 2009.
This case was investigated by the United States Department of Education and is being
prosecuted by Assistant United States Attorney Michelle Morgan-Kelly.
Top
Printable view
Share this page
Last Modified: 12/31/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov